                                                U.S. DEPARTMENT OF
                                HOUSING AND URBAN DEVELOPMENT
                                         OFFICE OF INSPECTOR GENERAL




                                                                                              MEMORANDUM NO.
                                                                                              2012-CF-1812

September 24, 2012


MEMORANDUM FOR:                Dane M. Narode, Associate General Counsel for Program
                               Enforcement, CACC

                               //signed//
FROM:                          Kim Randall, Director, Civil Fraud Division, GA

SUBJECT:                       Final Civil Action: Default Judgment Issued Against Section 8
                               Landlord for Fraudulently Claiming Housing Assistance Payments


                                            INTRODUCTION

The U.S. Department of Housing and Urban Development (HUD), Office of Inspector General
(OIG), conducted a review of Section 8 housing assistance payments made to Lynn Leggins, a
landlord, for a tenant with whom he lived. The objective of our review was to determine
whether Mr. Leggins received housing assistance payments that he was not eligible to receive.

                                METHODOLOGY AND SCOPE

We reviewed the records of the Housing Authority of the City of Orlando, which included the
landlord authorization agreement for automatic deposit credits, rental leases, marriage and death
certificates, and Section 8 housing assistance payments made to Mr. Leggins from January 2002
through January 2010 by the Authority. We also reviewed the documentation contained in the
Federal Housing Administration (FHA) case binder for the FHA loan on the property for which
these Section 8 funds were paid as rental assistance.

                                             BACKGROUND

HUD’s Section 8 Housing Choice Voucher program provides rental subsidies through tenant-
based vouchers for housing units chosen by the tenant in the private market. These vouchers are
administered locally by public housing agencies. To participate in the program, property owners
enter into housing assistance payments contracts with housing authorities. The housing
assistance payments contract states that unless the owner has complied with all provisions of the
contract, the owner does not have a right to receive payments under the contract. In addition, the
                                         Office of Audit – Civil Fraud Division
                              400 State Avenue, Suite 501, Kansas City, KS 66101-2406
                           Visit the Office of Inspector General Web site at www.hudoig.gov
property owner certifies to HUD that the assisted family does not own or have an interest in the
contract unit. The composition of the household must be approved by the housing agency, other
persons may not be added to the household without prior written approval of the owner and the
housing agency, and the contract unit may be used only by the approved household members.

Lynn Leggins was a landlord who participated in HUD’s Section 8 Housing Choice Voucher
program. He received housing assistance payments for tenant Sherry Brown for at least the
period January 2002 through January 2010. The Authority discovered potential fraud when Mr.
Leggins brought the death certificate for Sherry Brown to the Authority to discontinue the
housing assistance payments and the name on the death certificate was Sherry Leggins and not
Sherry Brown. The Authority asked OIG to conduct an investigation and take appropriate
action.

                                   RESULTS OF REVIEW

Lynn Leggins fraudulently received $76,071 in Section 8 housing assistance payments for a
tenant with whom he lived from about 1998 until 2010 and married in June 2002, Sherry
(Brown) Leggins. Mr. Leggins received this housing assistance for at least the period January
2002 through January 2010. We referred our findings to HUD for action.

On April 12, 2012, HUD filed a complaint against Lynn Leggins, seeking civil penalties and
assessments totaling $137,936, pursuant to the Program Fraud Civil Remedies Act of 1986, 31
U.S.C. (United States Code) Sections 3801-3812, as implemented by 24 CFR (Code of Federal
Regulations) Part 28. The complaint alleged that Mr. Leggins made or caused to be made 42
claims to HUD’s Section 8 tenant-based Housing Choice Voucher program administered by the
Authority that Mr. Leggins knew or had reason to know were false or fraudulent. The complaint
further asserted that Mr. Leggins knew or had reason to know that such claims were false or
fraudulent because he was in violation of the housing assistance payments contract and,
therefore, was ineligible for Section 8 housing assistance payments due to his continued
residence in the contract unit with the assisted tenant. HUD further contended that Mr. Leggins
knew or had reason to know that the claims made were supported by his written statements
asserting material facts that were false or fraudulent. Mr. Leggins failed to defend the action.

On July 10, 2012, a HUD administrative law judge issued a default judgment and order awarding
HUD the full amount sought in the complaint.

                                   RECOMMENDATION

We recommend that HUD’s Office of General Counsel, Office of Program Enforcement,

1A.    Agree to allow HUD OIG to post the default judgment of $137,936 to HUD’s Audit
       Resolution and Corrective Actions Tracking System as funds to be put to better use.




                                               2
